                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A03050022                                                                   Page 1 of 1



    The case has its origins in an audit finding of non-compliance with respect to an institutional
    financial conflict-of-interest policy for PIS on NSF grants (requirements found in NSF Grants
    Policy Manual (GPM), Section 5 10). The institutioni agreed with the findings of the audit2 and
    agreed to implement a compliant financial conflict-of-interest policy.

    The institution was later contacted3, and inquiry revealed that no action had been taken by the
    institution to put into place a compliant conflict-of-interest policy. The need to do so was
    emphasized in conversations with the institution. As a result, the institution proposed
    modifications to their current policy to bring it into concordance with the requirements set forth
    in Section 5 10 of the GPM. The revised policy was adopted by the Board of Trustees of the
    institution at their meeting on December 5,2003~.The policy appears to comply with NSF
    requirements.


    Accordingly, this case is closed.




    ' Redacted.
     Redacted.
     Redacted.
     Redacted.
